No. _ _ _ __

IN THE UNITED STATES SUPREME COURT
CERTIFICATE OF SERVICE

Perrier-Bilbo v. United States
I HEREBY CERTIFY that pursuant to the instructions provided to me by
Francesca Genova, attorney from the United States Department of Justice, I served
true and correct copies of the Petition for Writ of Certiorari and the associated
Certificate of Compliance with Word Limitation in the above-referenced case by
emailing those items to Supremectbriefs@usdoj.gov on August 31, 2020.
On September 15, 2020, I served a copy of the Petition for Writ of Certiorari with a
single erratum corrected by emailing that item to Supremectbriefs@usdoj.gov.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 15, 2020.

MICHAEL NEWDOW

Counsel of Record for Petitioner Olga Paul Perrier-Bilbo
Post Office Box 248
Nice, CA 95464
(626) 532- 7694
Newdow Law@gmail.com

